<html>
<title> - HELD FOR RANSOM: THE FAMILIES OF IRAN'S HOSTAGES SPEAK OUT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       HELD FOR RANSOM: THE FAMILIES OF IRAN'S HOSTAGES SPEAK OUT

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2017

                               __________

                           Serial No. 115-58

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                                                 
                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-426PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsy



                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Douglas Levinson (son of Robert Levinson)....................     6
Mr. Babak Namazi (son of Baquer Namazi, brother of Siamak Namazi)    12
Mr. Omar Zakka (son of Nizar Zakka)..............................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Douglas Levinson: Prepared statement.........................     9
Mr. Babak Namazi: Prepared statement.............................    14
Mr. Omar Zakka: Prepared statement...............................    20

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
Mr. Douglas Levinson: Material submitted for the record..........    34

 
       HELD FOR RANSOM: THE FAMILIES OF IRAN'S HOSTAGES SPEAK OUT

                              ----------                              


                         TUESDAY, JULY 25, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The committee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
any other members wishing recognition for 1 minute. We will 
then hear from our witnesses. We thank them for appearing 
before us today. Without objection, the witnesses prepared 
statements will be made a part of the record and members may 
have 5 days to insert statements and questions for the record 
subject to the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    On behalf of the ranking member and me, we wish that it was 
not necessary to conduct this hearing today. However, we 
believe that it is important to continue to elevate this matter 
as much as we can to ensure that we continue to advocate on 
behalf of U.S. citizens being unjustly held in Iran and ask 
questions about what our Government is doing to get your family 
members back home.
    Our witnesses today represent the families of four American 
hostages in Iran. Bob Levinson, a former U.S. Government 
employee and public servant for 33 years--we have his photo in 
a poster--including at both the FBI and the DEA, and a 
constituent of our ranking member, Mr. Levinson was last seen 
on March 9, 2007; Siamak Namazi, a businessman who graduated 
from Tufts and Rutgers Universities, who founded a consulting 
firm focused on the risk of doing business in Iran and who was 
detained on October 15, 2015; his father, Baquer Namazi, a 
former representative of the U.N. Children's Fund, who was 
detained on February 22nd, 2016 while trying to look into his 
son's case; and Nizar Zakka, an information, communications, 
and technology development expert who was detained on September 
18, 2015.
    In addition to these four men, we are aware of at least 
four other Americans being held in Iran, including three who 
were arrested last year and one who was detained just earlier 
this month.
    It is no easy task to testify before Congress, even more so 
when it is about a family member who is suffering and has been 
taken from you. And I know I speak on behalf of all members 
when I say that we are deeply appreciative of the witnesses 
appearing before us today. My heart broke as I read each one of 
your testimonies. The love and the pride that you have for your 
family members was so clearly evident, and I want you to know 
that all of us here are committed to doing everything in our 
power to get your loved ones home safely.
    This is unfortunately the second time in the last 3 years 
that our committee has held a hearing on Iran's hostages, as we 
welcomed the Levinson family last time as well as three 
witnesses whose family members were eventually released as part 
of the nuclear deal with Iran, known as the JCPOA. Iran's 
taking of hostages in exchange for political or financial 
concessions is by any definition morally and ethically 
abhorrent and completely outside the scope of international 
legal norms.
    I know that both the current and past administration have 
wanted to bring these Americans home and they have tried hard 
to find a solution when dealing with a regime that does not 
respect human rights or decency or the rule of law. But it is 
not enough. Without additional pressure on the Iranian regime 
and without a significant step up in the efforts of both the 
White House and the State Department, Iran will undoubtedly not 
only continue detaining those held today, but will take even 
more hostages in the future.
    The State Department and other relevant agencies must also 
intensify their efforts to keep in contact with the families of 
those being held every step of the way. Despite revisions to 
U.S. hostage policy in 2015, including the creation of a Family 
Engagement Coordinator, we continue to hear too many stories 
about the U.S. Government not keeping the families in the loop. 
The Hostage Response Group and the Hostage Recovery Fusion Cell 
were also good steps forward and have had some successes, but 
we continue to see too many Americans being held for too long.
    Later this week, a resolution that I am proud to be leading 
with Ranking Member Deutch will be on the House floor. It calls 
for Iran's unconditional release of Bob, of Siamak, of Baquer, 
and Nizar as well as any other U.S. citizen, legal permanent 
resident, or foreign national and urges the President to make 
their release the highest of priorities. And I have no doubt 
that it will pass overwhelmingly.
    But we need to see additional pressure and additional 
sanctions specifically against the Iranian individuals and 
entities responsible for detaining those family members, for 
taking hostages as a matter of policy, and for committing 
increasingly gross human rights abuses, so that Iran is finally 
forced to change its behavior and these Americans are released 
and brought home. We need to see an intense, concerted effort 
from both Congresses and this administration because this is a 
problem that is not going away.
    And with that I am pleased to yield to my good friend, the 
ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. I want to thank you 
for holding this hearing today. You have been a champion for 
these families and the families of so many others who have been 
wrongfully held or imprisoned by rogue regimes. You have been a 
steadfast partner in advocating for the release of my 
constituent Bob Levinson and I am most grateful for your 
unwavering support.
    To Doug, Babak, and Omar, thank you for being here today to 
share the stories of your fathers and brother. None of us can 
imagine what your families go through every single day. Your 
testimony today will give this Congress and the American people 
a small window into the unimaginable reality that you face each 
day.
    Just last week we learned that Iran has taken another 
American citizen, convicted him in some undisclosed sham trial, 
and sentenced him to 10 years in prison. Hostage taking is not 
a game that responsible nations play. Iran's outrageous 
disregard for international law should give every country, 
every company, especially every American company, pause as to 
whether this is a country they should welcome back into the 
community of nations.
    Siamak Namazi has been detained since November 2015. His 
father, Baquer, has been detained since February 2016. Baquer 
was detained at 80 years old, a mere 6 weeks after the deal 
that saw five Americans previously being held by Iran released 
in January of last year. His health unfortunately is poor. 
Neither were afforded due process, and this family has still 
not been made aware of the exact charges against them. This is 
not rule of law. This is hostage taking.
    Nizar Zakka is an internet freedom activist. He was invited 
to Iran to participate in a conference and was subsequently 
detained. Can you imagine, invited to a country and then 
arrested with no cause. Iran first acknowledged holding Nizar 
in November 3rd, 2015. Like Siamak and the recently sentenced 
Xiyue Wang, Nizar has been sentenced to 10 years in prison.
    Bob Levinson has been missing for 10 years. Bob went 
missing from Kish Island, Iran, March 9, 2007. Bob and his wife 
Christine live in my district in Coral Springs, Florida. Bob is 
a patriot in every sense of the word. He devoted 28 years of 
his life to government service, first at the DEA and then 22 
years at the FBI. I have come to know the Levinson family well 
over the past 7 years.
    Bob's wife of over 40 years, Christine, is here today as 
well as Bob's eldest son, Dan. Not here today are Bob's five 
other children, Susan, Stephanie, Sarah, Samantha, and David. 
Sarah recently gave birth to Bob's newest grandchild. He was 
born on July 4th, a date that certainly makes Bob proud. Last 
year, Bob's namesake, 3-year-old Bobby, underwent treatment for 
cancer, and just a few months ago Bob's son, David, had his 
first child and the baptism is next week.
    Bob has missed all of these milestones. Imagine 10 years 
without your husband, your father, your grandfather. We will 
hear what that has been like from Doug, who was only 13 at the 
time Bob disappeared. No family should have to endure 10 years 
of unanswered questions, 10 years of watching others come home, 
and 10 years of being left behind.
    I have sat in this room countless times over the years and 
talked about Bob, I have talked about him on the House floor, 
and I won't stop talking about Bob. I won't stop calling out 
Iran to once and for all send Bob home. Iran may claim they 
don't know where Bob is, but they know how to find him and they 
know how to get him home. We need action. Bob can no longer be 
left behind, and today I would like you to hear directly from 
Bob.
    In 2010, the Levinsons received the video you are about to 
see. In it you will see Bob under duress, pleading for his 
country to help him, if we could play it.
    [Video shown.]
    Mr. Deutch. It is hard to watch, but it is important that 
the world see Bob, that they see more than a name in a 
newspaper article, that they see the husband, father, the 
grandfather, the American public servant. I implore this 
administration to make bringing Bob home a priority. And 
despite our policy disagreements with Iran, bringing home Bob, 
Siamak, Baquer and Nizar, and the other Americans detained in 
Iran must always be at the top of the agenda.
    Doug, Babak, Omar, I can only hope that by providing each 
of you a chance to tell your family's story today we can send a 
message that the release of these Americans is a priority for 
this Congress, it is a priority for the American people, and we 
will not stop until they are home. And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. And the Levinson 
family feels very blessed to have you as their representative, 
for always being a voice for Bob. I know that we didn't catch 
the beginning part of that video. Is it possible to go back 
and--it seemed like it started in the middle.
    [Video shown.]
    Ms. Ros-Lehtinen. Thank you. And I think we got at the very 
beginning. Thank you so very much. Thank you. And now I would 
like to have members make their opening statements. We will 
start with Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair and Ranking Member 
Deutch for your continued dedication to this important issue. I 
know that you have both been, I kind of think, an inspiration 
to the rest of us on the committee for how doggedly you have 
taken this on and thank you for doing that. And I also want to 
express our sincere admiration for our witnesses here today, 
all three. Your willingness to testify on these abhorrent cases 
is a testament not only of your love for your family members 
but to your courage and tenacity in standing up for what is 
just and what is right.
    Mr. Levinson as we know is the longest-held U.S. civilian 
in American history and Iranian officials have done little to 
live up to their commitments to work through the cases to 
assist the United States to investigate Mr. Levinson's 
disappearance. And Iran--I am almost out of time. Iran has 
continued to take people hostage. They took people before the 
agreement with Iran and they have taken people since then.
    So it seems nothing has worked to change the way they value 
human life. It is a terrible situation and to have a loved one 
outside your family under the circumstances you have is just 
something that no human being should have to be under those 
circumstances, and this is on Iran. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, and I too want to join in 
commending the chairman and the ranking member for holding this 
hearing. And to each of you, thank you for being here for 
sharing your story. I first had the privilege of sitting in 
this chair 4\1/2\ years ago, and it was then that I first heard 
my colleague from Florida, Mr. Deutch, so eloquently speak on 
behalf Robert Levinson. I have heard him speak many, many 
times.
    I was not here when the deal with Iran was consummated and 
some of the hostages were brought home but Mr. Levinson was 
left behind. I am greatly honored and fortunate to be back in 
this seat and quite honestly stunned that we are still having 
to speak out and call for the return of Robert Levinson. But 
here we are. And I want to thank my colleague, Ted, for your 
continued passion and eloquent words. We will continue to fight 
for this. Thanks to Doug, to Babak, and Omar. Your presence 
here is a reflection of our commitment and we will be here 
until your fathers, your brother, come home. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. DeSantis, I mean Mr. 
Schneider. Mr. DeSantis of Florida.
    Mr. DeSantis. Well, I thank the chairman and thank the 
ranking member for keeping the American people apprised of this 
issue. We had a deal with Iran. We sent billions of dollars, 
even a billion seven in cash. I know we got some people back. 
We did not get everybody back and we need to do that. This is a 
maniacal regime. They are fomenting all kinds of problems all 
across the Middle East. They are a stalwart enemy of this 
country and I would just urge the President, lean in on this 
issue. Put some pressure on them. Do what we can do. We are the 
strongest country in the world, we have got to be able to get 
our people back.
    And I know there is a lot of stuff that goes on behind the 
scenes, but boy, I would love to see something public, strong, 
and swift and I would love to see these people back. I yield 
back.
    Ms. Ros-Lehtinen. Thank you, Mr. DeSantis.
    Mr. Zeldin of New York.
    Mr. Zeldin. Well, thank you Madam Chair and to the ranking 
member as well for your leadership on this issue, this hearing, 
which is called the Families of Iran's Hostages Speak Out, 
hopefully will be part of a better way forward of America 
speaking out because these families need this administration, 
need the American people to be fully behind them in this 
effort.
    We gave $1.7 billion ransom payment in cash to Iranians at 
the same exact time of securing a release of some unjustly 
imprisoned Americans. The administration said it wasn't a 
ransom. Some suggested it was a coincidence. Some said we owed 
them the money. Everything in this story is highly and easily 
disputable based off of facts. One of those facts also is that 
not everyone has come home and Iran has continued its bad 
activities.
    So thank you again to the chair for hosting this hearing 
and hopefully it will inspire our country to do more to speak 
out to bring your families home and to ensure this doesn't 
happen again with better policies going forward. I yield back.
    Ms. Ros-Lehtinen. Amen. Thank you, Mr. Zeldin.
    And now we would like to introduce our witnesses. Honored 
to welcome Doug Levinson, Doug as you know is the youngest son 
of Robert Levinson. He was only 13 when his father, Bob, went 
missing in Iran. I have had the pleasure, we all have, of 
having met with him many, many times about his father's case. 
He works here on the Hill for the office of our good friend, 
Senator Bob Menendez of New Jersey.
    Thank you, Doug, for your persistent efforts. Thank you for 
being with us today. We look forward to your testimony.
    And next we would like to welcome Babak Namazi. Mr. 
Namazi's father Bakar Namazi and brother Siamak Namazi were 
sentenced to prison in 2016 by the Iranian Revolutionary Guard 
Corps under trumped up charges. Babak has been working 
relentlessly to free his father and his brother.
    Thank you, Babak, for joining us in this important hearing 
today. I have had the pleasure of meeting you at various times 
along with your attorney. We look forward to hearing your 
testimony.
    Finally, we would like to welcome Omar Zakka. Omar is the 
son of Nizar Zakka who was arrested, as you had heard, while 
attending a women's conference in Tehran in 2015. Nizar was 
sentenced in closed-door trial to 10 years in an Iranian 
prison. Nizar has engaged in multiple hunger strikes during his 
imprisonment which has put his health in an unstable condition. 
His son Omar has been working also tirelessly to secure the 
release of his father.
    Thank you for taking the time to speak with us today, Omar, 
and we very much look forward to your testimony.
    As I had said, your written testimony has been made a part 
of the record. Please feel free to summarize your statements 
and then we will begin our question and answer period. We will 
begin with you, Mr. Levinson.

   STATEMENT OF MR. DOUGLAS LEVINSON (SON OF ROBERT LEVINSON)

    Mr. Levinson. Thank you. Madam Chairwoman, Ranking Member, 
and distinguished members of this committee, thank you for 
inviting me to testify before you today. My name is Doug 
Levinson. I am the youngest child of Robert and Christine 
Levinson. What you just saw was the last known video of my 
father who disappeared from Iran's Kish Island on March 9, 
2007. That was 3,791 days ago. Bob Levinson, or Dad as my six 
siblings and I call him, is the longest-held hostage in 
American history.
    The Iranian Government has never officially recognized 
arresting my father, but just 3 weeks after he went missing an 
Iranian state-sanctioned media outlet called PressTV reported 
that he was <greek-l>quote  deg.``in the hands of Iranian 
security forces and could be freed in a matter of days.'' Our 
family also received documents indicating that he was arrested 
by local authorities on Kish Island. I would like to submit 
these articles----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Levinson [continuing]. Into the record. Thank you.
    Iran has repeatedly changed their story from asking what he 
was doing there to denying he was ever there at all. The 
hostage video you saw was made to look as if he was being held 
by some radical extremist group. Don't be fooled. The U.S. 
Government officials believe that is a ruse. Iran is 
responsible and they know exactly where he is.
    Over the past 10 years, Dad has missed three of his 
children's weddings, two high school graduations, and three 
college graduations, including myself, and too many birthdays 
and major milestones to count. He has five grandchildren he has 
never met. They know their Grandpa Bob through the stories we 
tell them and they pray each night to one day meet him. Bobby, 
who was named after his Grandpa Bob, is currently in remission 
from stage II lymphoma. He is only 3 years old. But with all 
that Dad has missed over the past 10 years, the most 
devastating part is that Bob Levinson has been left behind by 
the U.S. Government time after time after time and we cannot 
let that happen again.
    With me today is my mother Christine who has fought every 
single day of these past 10 years to rescue the love of her 
life. My parents should be enjoying their empty nest, visiting 
their grandchildren, and traveling the world like they had 
promised. Instead, my mom's first trip outside of the United 
States was to Iran to retrace my father's footsteps. Words 
cannot describe what an honor it is to be the child of Bob and 
Christine Levinson. [Applause.]
    Mr. Levinson. Also here with me today is my older brother 
Dan who testified before this committee 2 years ago alongside 
the families of Jason Rezaian, Saeed Abedini, and Amir Hekmati. 
Just 6 months after that testimony all three were released as 
part of the JCPOA, but our father was left behind and we had to 
find out from watching the news just like everyone else. Let me 
repeat that. My mother found out because my sister called her 
after seeing it on television. No one from the United States 
Government had the decency to give us an advanced warning that 
this was happening.
    Devastated does not even come close to what we felt that 
day. My family received the hostage video that you saw, earlier 
in 2010, years after many in the government wrote him off for 
dead. We received this photo and others like it in 2011.
    Bob Levinson has devoted his life to two things, providing 
unwavering love to his wife and family and protecting America 
by putting away the bad guys. Dad worked for the FBI for 22 
years and 6 years in the DEA before that. He was working for 
the U.S. Government when he was taken and therefore the United 
States Government has a moral obligation to bring him home.
    Just last year, the United Nations Working Group on 
Arbitrary Detention ruled that Iran is responsible for my 
father's arrest and declared that they must acknowledge and 
return him home immediately. The U.N. has been more forceful on 
securing my father's return than the government that sent him 
there.
    I was only 13 years old when my father was kidnapped. He is 
my best friend. He is everything I wish I could be. Four days 
before he was kidnapped my father wrote me an email. This is 
what it said: Monday, March 5, 2007. Dear Dud, I hope you miss 
me as much as I miss you.
    I didn't see his message until March 11th, the day after we 
learned something was wrong. As a scared and terrified 13-year-
old boy who had just been told his father was missing, I sent 
him a message back. Sunday, March 11, 2007. Hi Daddy, it is 
March 11th and I just got your email. Everyone is looking for 
you. Dad, I want to let you know that I love you so much and 
please come back home safe and sound. I love you, Dad, so much. 
Please respond back. I am so scared. Please come home.
    The last time I saw him I was about 5 foot 4 inches. Today 
I stand 6 feet 4 inches tall, the same height as Dad when he 
left. I have always wanted to follow in his footsteps, but I 
never thought that I would be wearing a pair of his shoes while 
testifying in front of Congress. I will be honest, they are 
still a little bit big, but the blisters that I get on my heel 
remind me of the service and the sacrifice that the man they 
belong to gave to this country.
    His service inspired me to move to DC last year and to take 
a job working on foreign policy for a senior member of the 
Senate Foreign Relations Committee. I know the weight that this 
committee holds and while I am honored to be here, this is the 
second time we have had to do this. This is the second time we 
have had to testify on my father's behalf. We pray there will 
not need to be a third.
    Finally, I am here today with three goals. First, to make 
sure that my father is not forgotten. We are desperate. We have 
endured the turnover of three administrations. We have met with 
anybody and everybody that will listen. We don't know what else 
we can possibly do.
    Second, we are here to get on the record that the United 
States Government has repeatedly failed my father and my 
family. Year after year we have witnessed the United States 
administration officials fail to make my father the priority he 
needs to be. We are hopeful with this new administration, but 
we have heard these same promises before. We need action. We 
have watched at least ten Americans who have been captured and 
released by Iran since my father was taken 10 years ago. Ten. 
That is ten families who have been reunited with their loved 
ones. That is ten times that my father has been left behind, 
one for each year he has been gone.
    And third, we are here to ask for your help. Please, hold 
the United States and the Iranian Governments accountable for 
bringing Bob Levinson home. Please, be relentless in pursuing 
all options and pushing this administration to resolve this 
case as quickly as possible. And please, do not let Iran off 
the hook. They have been allowed to do whatever they want 
because there have been no consequences. They have avoided my 
father's case for years. They know what happened to Bob 
Levinson and they can send him home, but they choose not to.
    In our experience, the Iranians only respond to pressure. 
Hold their feet to the fire. Threaten them with sanctions. Do 
anything. Do something. The excruciating pain of not knowing, 
the fear that we haven't done enough, and the thought that the 
United States Government has failed to rescue my father thus 
far is demoralizing. My father Bob Levinson is an American 
hero. He is a patriot. Please help us finally bring him home. 
As he said in that hostage video in 2010, 33 years of service 
deserves something. Please help us. Thank you.
    [The prepared statement of Mr. Levinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, excellent testimony, heartfelt 
and insightful. Thank you so much, Mr. Levinson.
    Mr. Nimazi?

STATEMENT OF MR. BABAK NAMAZI (SON OF BAQUER NAMAZI, BROTHER OF 
                         SIAMAK NAMAZI)

    Mr. Namazi. Madam Chair.
    Ms. Ros-Lehtinen. You could put the microphone a little bit 
closer to you.
    Mr. Namazi. Madam Chair, is that better?
    Ms. Ros-Lehtinen. Just a little bit. Why don't you hold it 
a little bit closer to you.
    Mr. Namazi. Madam Chair and distinguished members of the 
subcommittee, 651 days ago on October 13, 2015, my brother 
Siamak Namazi was arrested and detained in Iran by the Iranian 
Revolutionary Guard Corps and has been held at a notorious Evin 
Prison.
    In January 2016, five American hostages were released from 
prison in Iran. To my family's shock and horror, my brother was 
not released. We were given different explanations of the 
inexplicable, but felt reassured to learn that Secretary of 
State John Kerry had been promised by Iranian Foreign Minister 
Zarif that Siamak would be released within weeks of the other 
hostages' release. When he was not, my family was devastated.
    But things only got worse from there. Instead of releasing 
my brother, on February 22nd, 2016, my father Baquer Namazi was 
lured back to Iran from a brief trip abroad by the promise of 
seeing Siamak, but instead he was also detained. On October 17, 
2016, without any evidence or respect for the their rights of 
due process, my father and brother were each summarily tried, 
convicted, and sentenced to 10 years in prison for collusion 
with a hostile government. They remain in Evin Prison today.
    It is important to emphasize this latter point because 
Foreign Minister Zarif claimed last week in an interview with 
CBS News that my father was not behind bars, implying he had 
been transferred to house arrest. This is just not true. My 
father and brother have been and continue to be subjected to 
unimaginable suffering including spending part of their 
confinement in solitary cells.
    My father is 81 years old and has a severe heart condition 
that requires medication and may shortly require a pacemaker. 
He has lost more than 30 pounds and suffers dizziness, 
shortness of breath, and headaches. In the last few months, he 
has been twice hospitalized for a week at a time which only 
makes us more concerned about his well-being, especially as the 
IRGC never told our father or our family what was wrong with 
him after such hospitalization and no records were given to the 
family. It is obvious that his condition, both physical and 
mental, is rapidly deteriorating. My father's prison sentence 
is a death sentence.
    My brother is a strong man, but I fear he has given up 
hope. His detention conditions are truly horrific. He has been 
kept in isolation for long periods of time. For the majority of 
his detention he was forced to sleep on a concrete floor 
because they gave him no bed and held him in solitary 
confinement for most of the time. Though Siamak will not talk 
about it, he has been tortured by the IRGC with beatings and 
tasing and psychological torment as prison guards having told 
him my father is in dire health and only telling him the truth 
days later.
    The IRGC has ripped my family in half, and for those of us 
left behind we worry all the time about whether my father and 
Siamak will survive. We don't yet see a way through this 
suffering to their liberation. I don't understand why Foreign 
Minister Zarif would claim my father is now under house arrest 
when he clearly isn't. For the Iranian Government to present 
this false claim to the international community makes a mockery 
of my family's pain by having given us a moment of hope that at 
least a little of our suffering might be ameliorated, only to 
see it dashed when the truth becomes clear that it hadn't 
happened.
    I cannot digest the inhumanity and cruelty that my family 
is exposed to on a daily basis. My family is very grateful that 
the United Nations where my father worked for many years is 
highly engaged. It has been very heartening to see Secretary-
General Guterres engage at the highest levels with the Iranian 
Government following up on Secretary-General Ban's engagement. 
And Tony Lake, the head of UNICEF, has been incredibly focused 
on pressing Iran to release my father as well as hundreds of my 
father's UNICEF colleagues.
    We are also very grateful for ongoing assistance provided 
by President Trump and his administration on our behalf. It is 
clear by both the public statements and private actions that 
the President is very focused on securing the release of my 
family and other American citizen hostages in Iran. We 
desperately need that help and support to secure my father and 
brother's release. While I am not qualified to say what 
specifically would be most effective to secure the release of 
my family, I urge the President and Congress to spare no 
efforts and to do whatever is necessary to save my father and 
brother and to save them quickly.
    I would also be remiss if I did not thank Chairwoman Ros-
Lehtinen for having originally sponsored House Resolution 317 
with Representatives Lowey, Poe, and Deutch, and all other co-
sponsors. It is heartening to see such strong bipartisan 
support and my family is so grateful that this subcommittee 
unanimously adopted the resolution. I hope the full House of 
Representatives will take up the resolution as soon as 
possible.
    Finally, I turn my attention to speaking publicly to the 
Government of Iran. In short, my father and brother have done 
nothing wrong and are innocent. Foreign Minister Zarif said 
last week at the Council on Foreign Relations that he is 
willing to address this humanitarian problem from a 
humanitarian perspective. I pray that he finds a way and that 
these are not just empty words. They must be released urgently 
and on humanitarian grounds before it is too late.
    I have been reassured so many times by well-meaning 
individuals to be patient and that my family just needs to hold 
on, but patience isn't a virtue that I can have when I see my 
father and brother's physical and mental health deteriorate so 
much and at an increasing rate of speed. Please help me bring 
my father and brother home. I am losing my entire family. We 
are simply running out of time. Thank you.
    [The prepared statement of Mr. Namazi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much and thank you for 
referencing our bill which we hope will be on the House floor 
for passage tomorrow afternoon, late afternoon.
    Mr. Namazi. Thank you, Madam.
    Ms. Ros-Lehtinen. And of course it calls for the release of 
all of your family members. Thank you.
    Mr. Namazi. Thank you.
    Ms. Ros-Lehtinen. Mr. Zakka, thank you so much.

        STATEMENT OF MR. OMAR ZAKKA (SON OF NIZAR ZAKKA)

    Mr. Zakka. Good afternoon. My name is Omar Zakka. I am the 
youngest of Nizar Zakka's three sons. My brothers are Nadim and 
Kareem, and I am speaking on the family's behalf. We are 
residents in Washington, DC, also have family in Texas.
    My father wanted me to be sure that I thanked all of you 
ladies and gentlemen of the Congress, the representatives of 
the American people. Thank you for defending human rights as 
well as calling attention to my father's plight and, as my 
father reminded us many times before, the plight of other 
innocent people, Americans and those from many other countries 
being held in hostage in Iran. I know that my dad appreciates 
how you have stressed the particular obligation that the United 
States has in securing his release as well as the release of 
other U.S. persons held in Iran.
    When the Iranians abducted my father, I had not even 
graduated high school. At the time, I was following in my 
father's footsteps. I was a cadet second lieutenant at my 
father's alma mater, the Riverside Military Academy in 
Gainesville, Georgia. Like other cadets, I was trying to learn 
accountability by working and leading my peers during a 
challenging time in my life. I had hopes and dreams and still 
do. I thought I would be in some state college right now doing 
what any 19-year-old would be doing. Sitting here in Congress 
was the farthest thing from my mind. However, my dad's close to 
2-year ordeal has taught so much about the importance of life, 
family, and friends.
    Today is the 30th day of my dad's latest hunger strike. His 
will, as I said, as strong as ever. My dad is innocent and as 
he says will not be forced to do things against his will 
including signing forced confessions.
    Even though I was hardly aware or even appreciated the 
scope of my father's work at the time, I knew enough to be a 
very proud son. All of my brothers are very proud of him. Our 
dad is truly a great man, maybe a better man than I will ever 
be. My dad has devoted his life for humanitarian and 
development work, in other words helping others. My dad used 
his computer science and mathematics degree from Texas 
University, and his talents, to help others in the ICT field.
    My father believes in the power of information as well as 
technology, and how it can help other communities that the 
world has neglected and left behind. I have never known him to 
even have a political standpoint as all along he proclaimed to 
be a law-abiding citizen of the world and does not advocate for 
any party, group, or government. To help advance his mission, 
he founded and managed a nonprofit 501(c)(3) organization, 
IJMA3 USA, with offices right here in Washington, DC.
    My father, Nizar Zakka, was invited by Iranian Vice 
President, Mrs. Molaverdi, to attend in September 2015 in 
Tehran a conference on Women in Sustainable Development 
Entrepreneurship & Employment. I will repeat this because it is 
so important. My dad had an official invitation from a senior 
Iranian official and an Iranian visa. In her invitation letter 
to my dad, Mrs. Molaverdi said that she wanted my dad to speak 
in Iran because of his countless knowledge, valuable 
experience, and deep creativeness. Yet despite these nice-
sounding words, after the conference my dad was kidnapped on 
his way to the airport. Since then, he has been detained and 
held against his will at the notorious Evin Prison. This is why 
my dad has said throughout this ordeal that he was invited and 
kidnapped.
    I was not alive, of course, the first time Iranians took 
Americans hostages in 1979, so this is the first time in my 
short years that I have heard anything like this. So I decided 
to research about it, found nothing. This is baffling. It seems 
as if this is the first time anyone, much less an ICT expert, 
is invited by a government as a guest then gets kidnapped by 
that same government. Taking innocent people hostage is not 
what civilized governments do. This is why we have repeatedly 
urged the unconditional release of my dad. To his captors in 
Iran: Please let my dad go. My dad was in Iran as your guest, 
why do you treat him this way?
    It has been 2 years since my father was stolen away from 
our family. It has been a rough time. In addition to the bad 
things that have been done to him in Evin, his mother, our 
grandmother, died last year and my dad was not able to say 
goodbye to her. We talked about these things since I have had 
the privilege to speak to him on the phone. His voice and tone 
alone have made me feel the suffering he has had to endure to 
this point.
    These 2 years have done so much damage to him physically 
that I would never wish this upon anyone in the world. All of 
this pain and suffering has led my dad to his fifth hunger 
strike. Why, because he tells me and my brothers that we do not 
put our heads down for anyone. My dad said that he would rather 
die for his cause than live with injustice. He told me it is 
about liberty or death. He did not say whether he was quoting 
the famous American Patrick Henry, but he has been inspired 
throughout his whole life about the American experience of 
liberty and freedom.
    My father has been called a prisoner of conscience. This is 
very difficult for me to say, but as my dad has said, again, he 
would rather die than succumb to his captors. Even in Evin 
Prison, in his own way, my dad thinks of other prisoners and 
what they are going through including some who have family here 
today. To these families, I know my dad, and if he can I know 
that he will do all he can in his power to help your loved ones 
get out as well.
    This is his 30th day on hunger strike. I fear for his life 
and safety. My dad spoke to me briefly this morning. He said he 
knows that Americans stand for liberty and freedom and that 
they won't let him down. You may not be aware that my dad is a 
horseman. He said today he is no longer feeling hunger, but 
rather severe, excruciating colic pain tearing him from inside, 
exactly similar to what a horse feels when he is severely sick.
    Please, I plead with you, the American people, the people 
from our ancestral homeland, Lebanon, please do not let my 
father die in Iran. We ask anyone in a position to do so to 
please help my brothers and I be reunited with our father. 
Thank you very much for this special opportunity.
    [The prepared statement of Mr. Zakka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Zakka. Thank 
you, very mature and professional presentation as well as 
heartfelt and emotional and I am sorry that you had to grow up 
so fast, along with Mr. Levinson, before your time you became 
adults.
    Mr. Levinson, your father as we have discussed is the 
longest-held American citizen in our nation's history, and his 
disappearance in 2007 means that your family has interacted 
with three U.S. administrations in the White House. Can you 
tell us about the level of engagement the U.S. Government has 
had with your father's case over the last decade, and do you 
feel that the current administration is giving your father's 
case the appropriate amount of resources? Can you describe how, 
if at all, the current administration's approach may differ 
from the previous two administrations? Thank you, sir.
    Mr. Levinson. Absolutely. Thank you for the question.
    Just this past week, my mother as well as several of my 
siblings came to DC and we met with various U.S. Government 
officials at the White House, at the State Department, as well 
as the FBI. The FBI has been absolutely incredible over the 
past 10 years. They truly make us feel as if we are family 
because my father was an FBI agent for 22 years.
    I think that over the past 10 years we have been told the 
same things over and over again, ``Stay silent'' or ``Now it is 
time to be more public.'' It has been fluctuating for 10 years 
of doing press and not doing press. And it is incredibly 
disappointing to my family that it has been 10 years of this 
over and over and over again and three administrations.
    We are optimistic about the White House statement that was 
released on Friday saying that there will be severe 
consequences if the Iranian Government does not release my 
father and the other Americans being held, and we are 
optimistic by that because that is some of the strongest 
language that we have heard in the past 10 years, but it is a 
great first start. It is a great first step and we are looking 
for more.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Namazi, you testified that your father has lost more 
than 30 pounds and he has been hospitalized twice in the last 
few months. And your brother, well, his detention conditions 
are horrific. He has been subjected to psychological torment. 
Can you tell us what kind of access they are getting for their 
health needs, any attention whatsoever? And how can the U.S. 
Government, have we been advocating for their health needs 
while they are in prison?
    Mr. Namazi. Thank you, Madam Chairman. I think what has 
been lacking, well, for my family ever since this nightmare 
started is really understanding what has been happening to my 
father and Siamak. When my dad was hospitalized this was not 
information that was shared with us in advance. This is 
something we found out after the fact from my father. When we 
asked him why he was hospitalized there was not much he could 
tell us. He had no access to medical records from this 
hospitalization, and we were never formally advised of what 
conditions and what records they were.
    There has been a lot of pressure because of this from the 
U.S. Government, from my family, from everyone who cares, 
really, and I believe that he has been getting more medical 
attention because he has already been hospitalized twice. But I 
fear that this is not enough and I fear that at any moment my 
father may die. And I hate saying this, I also didn't think I 
would ever have to sit in this room and testify and describe 
these horrible conditions. So I think what is really urgently 
needed are ways to get my family out before it is too late.
    Ms. Ros-Lehtinen. And the clock is ticking and you fear for 
their survival.
    Mr. Namazi. Yes. I mean the days, the weeks, the months, 
they are going by and this situation continues to deteriorate 
very rapidly. We are not talking about a condition that has 
just come about. My father has had heart surgery in the past. 
He has had heart condition in the past. Siamak has been pushed 
over the edge. He is under relentless pressure and 
interrogations. All signs indicate that they are succeeding in, 
you know, taking away his will and really breaking him.
    So we are desperate. We are desperate and we are 
completely, until today, at a loss of why this is happening to 
our family.
    Ms. Ros-Lehtinen. We hear your pleas and we will act on 
those.
    And Mr. Zakka, thank you so much for your emotional 
testimony. Now in November of last year, Iran's Javad Zarif 
talked about your dad and he said that the matter of your dad 
is a U.S.-Iranian problem. And one of the leading networks also 
asked Rouhani about your father. What message do you have for 
Zarif, for Rouhani, for any other Iranian regime leader who can 
help your father?
    Mr. Zakka. You wouldn't expect anyone to be invited into 
their home and you hurt them. When you invite someone to your 
home you must respect them, respect the people that walk into 
your home and do not harm them. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, excellent witnesses 
and just a horrific set of circumstances.
    And it is my pleasure to recognize Mr. Deutch for his 
question and answer.
    Mr. Deutch. And I thank my friend the chairman.
    Doug and Babak and Omar, it is difficult to testify before 
Congress. It is particularly difficult to have to appear to 
share something as painful as what each of you is going 
through. I would just suggest that and let you know that the 
service that you are providing the country, not just Bob and 
Siamak and Bakar and Nizar, but the service you are providing 
the country by giving us the opportunity to pause for a moment 
and remember that with all of the challenges that Washington 
faces and all of the things that are so dividing our country, 
at a moment when Americans are being held abroad wrongly as 
hostages and it is a moment that the country has to come 
together and you are providing that opportunity for all of us 
and for that we are grateful.
    Doug, I know that your mom and your brother Dan traveled to 
Iran shortly after your dad went missing. Have you had any 
further engagement with Iran since that first trip? Are there 
plans to go back?
    Mr. Levinson. Yes, so actually my brother Dan traveled to 
Iran, Kish Island, himself, just almost 2 years ago after the 
previous hearing. If that is any sign of how desperate we are, 
my brother traveled there by himself to Kish Island to retrace 
my father's footsteps again and talk to anybody there that 
could help us.
    We would love to go back. Hopefully we won't need to. 
Hopefully they can send him home. But if we need to, we are 
looking into putting in our request to go back over there.
    Mr. Deutch. The hearing today is obviously being broadcast. 
Is there anything that you would like to say to the people who 
are holding your father, Doug?
    Mr. Levinson. I would say we need Bob Levinson. We need my 
father back now. It has been 10 years. He has missed so much, 
if that picture of me is any physical evidence or can tell you 
how long it has been, how much of our lives he has missed. He 
is a good man. He is a decent, good and decent man. Please send 
him back home.
    Mr. Deutch. Is there a particular message we can send to 
the new administration, Members of Congress?
    Mr. Levinson. Yes. Like I said in my testimony, do not let 
Iran off the hook. They know exactly where he is. Put as much 
pressure as possible on them and this administration. If there 
is a way to sanction an organization or an individual over 
there and hold that as a terms of release of my father saying 
that we will not ease those sanctions unless you return Bob 
Levinson, that is one suggestion. I think that it is absolutely 
devastating to my family that it has been 10 years and the U.S. 
public, not everybody knows about Bob Levinson and not 
everybody knows about the longest-held hostage in American 
history who is still being held.
    Mr. Deutch. And finally, if you would like on behalf of 
your mom and your siblings, you have not had the opportunity to 
speak with your dad, what message would you send to him?
    Mr. Levinson. I would tell him, I would say Dad, we are 
never going to stop. We will never stop fighting to get you 
home. We are doing everything we possibly can every single day. 
We miss you. We love you. Please stay strong. We are going to 
get you home.
    Mr. Deutch. Doug, I can only promise you and Christine and 
Dan and your family and the Namazi family and the Zakka family 
that the chair and I and the members of this committee and the 
members of the United States Congress will continue to work and 
press and do everything we can until all of your loved ones 
return where they belong here at home. And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch, for your 
leadership on this issue.
    Mr. Zeldin of New York?
    Mr. Zeldin. Thank you, Madam Chair. And first off, to the 
Levinson family I can personally attest from being in many 
settings with your congressman that when you are not around, no 
cameras, no media, when it is just your congressman with anyone 
who can possibly do anything to help you, it is the very first 
thing and he advocates very passionately on your behalf. I 
can't even, I have lost count of just how many times I have 
been in the settings with him where he was advocating on behalf 
of you and your family. It is important for you to know that 
because none of that does get covered. And I also know that he 
is not doing it to get covered, he is doing it to bring your 
dad home, to bring your spouse home.
    As far as when we look at the debate over Iran and the Iran 
nuclear deal, there is discussion over the letter of the deal 
and there is the discussion over the spirit of the deal. And 
the spirit of the deal you can look at all of Iran's bad 
activities in total to see whether or not Iran is abiding by 
the spirit of the deal. I think today's hearing is showing the 
faces of Iran violating the spirit of the deal.
    Every time Iran is chanting death to America in their 
streets, on their holidays, calling us the Great Satan, calling 
Israel the Little Satan, test firing intercontinental ballistic 
missiles in violation of U.N. resolutions, working to overthrow 
foreign governments or financing terror, actively doing it 
right now with the money that was provided to them in the 
sanctions relief, they are violating the spirit of the deal.
    And part of the process of recertifying every 3 months the 
Iran nuclear deal is not just whether or not Iran is in 
compliance with the letter of the JCPOA, but also whether or 
not the deal is in America's national interest, it is in the 
best interest of America's national security. And unfortunately 
what we gave up was our leverage that brought the Iranians to 
the table. As we were negotiating the JCPOA, the Iranians 
needed the deal more than we did. Not only were we propping up 
a bad regime, we certainly were propping up the wrong regime 
when you look at the other options. And if someone was to say 
they only spent $1 billion or $3 billion on terror that is $1 
billion or $3 billion more than we should have been providing 
to them through the sanctions relief.
    So now we have these Americans being unjustly imprisoned 
and the Iranians are not at the table. And that is why I 
believe that when we were negotiating the deal in the first 
place all of these other bad activities should have been part 
of the agreement because I don't know what leverage right now 
we have to have the Iranians come to the table begging to 
release your family members.
    And I think it is important for Congress and the 
administration and for the American public, but also for the 
international community, because this isn't just the United 
States, to all be working together to increase sanctions on 
Iran's bad activities to get back to that point where the 
Iranians are begging for the sanctions relief. And at that 
point as they are begging for the sanctions relief we should be 
putting down a red line that says we will absolutely not agree 
to this deal unless you release our American prisoners being 
unjustly held. It is a red line that should have gotten thrown 
down last time and it is a red line that should be taken into 
consideration for next time.
    And in order for that red line to be effective, I believe 
that Congress needs to be increasing the sanctions on the 
Iranians and that the Americans need to work on putting the 
teeth back into these sanctions working with our allies in 
other countries, because I think that too is part of the 
purpose of us being here. One is to hear your incredibly moving 
testimony, to see your faces as the face of Iran's bad 
activities and your family members as the face of Iran's bad 
activities, but to do something about it because you want your 
family members home.
    And you know what, with Iranians, asking nicely isn't going 
to make it happen because these aren't good people. They don't 
respect weakness, they only respect strength. And to get them 
back to the table and to get your family members home, the 
pressure needs to get ramped back up and we need to stop 
playing nice with the wrong regime, a regime that appeases 
hardliners and certainly doesn't have your family members' best 
interest in mind. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Zeldin.
    Mr. Schneider?
    Mr. Schneider. Thank you. And again I just want to 
emphasize my gratitude to the chairman and ranking member for 
calling this hearing, for each of you for sharing your stories. 
I am the father of two sons same age as you, Mr. Levinson, 9 
months on either side of you. I am a very proud dad. I can't 
speak on behalf of your fathers, but I can speak with certainty 
that they are very proud of you here today, so thank you for 
sharing your story.
    Mr. Levinson, you have had the unfortunate circumstance, 
you and your family, of working with now three administrations. 
To the extent that you are willing to share, could you help us 
understand the differences in approach, if any, that this 
administration is taking, or steps and actions you would like 
to see this administration take?
    Mr. Levinson. Absolutely. Thank you for your comments. Like 
I said, the statement put out last week by the White House was 
some of the most strong and powerful language directed at the 
Iranians. I believe it is quoted as saying there will be severe 
consequences if they do not return Bob Levinson and the other 
American hostages and all other American hostages.
    I think throughout the past 10 years we have seen--we have 
constantly been told the same thing that we are doing 
everything we can. But on January 16th, it was apparent that 
not everything that they could have done was done.
    Mr. Schneider. January 16th last year.
    Mr. Levinson. Correct, 2016.
    Mr. Schneider. Right.
    Mr. Levinson. My father was not part of the JCPOA. After 
the other Americans were released, I believe in the deal it is 
stated that Iran will continue to cooperate on working to find 
my father, and they have not. I have to make that clear. They 
have not. We have not heard anything from them cooperating with 
the United States Government.
    I think for this administration again the statement was a 
good first start, first step. Truly it is encouraging to us. 
However, statements need to be backed with action, and if they 
do not release my father there needs to be consequences.
    Mr. Schneider. Agreed.
    Mr. Namazi, as I understand it, you and your family had the 
chance to meet with Ambassador Haley at the U.N. From your 
perspective, to the extent you can share again and outcomes, 
effects that that meeting had, the effect of having the U.N. 
and UNICEF engaged in your father's case, could you expand on 
that if you would?
    Mr. Namazi. Thank you. As you mentioned, my father worked 
for over 20 years for UNICEF so it obviously makes a lot of 
sense for the U.N. to be highly engaged and they have been 
engaged. Meeting with Ambassador Haley was extremely helpful to 
bring the attention that it is not just a concern in 
Washington, obviously, which is a very high concern as it 
should be, but also the U.N. community and the U.N. family is 
extremely concerned for the well-being of my father. So I found 
a lot of support from Ambassador Haley and it has publicly been 
reported afterward of course. Secretary-General Guterres has 
also as a result been engaged following by the former 
Secretary-General.
    All these engagements of course are very helpful, but at 
the end of the day what matters to me, to my mom, what matters 
the most to my dad and Siamak is the results. It has been 
almost this past week marked 2 years that Siamak was prevented 
from leaving. It is about 20 months that this nightmare has 
been going on for my father who is not doing well. And all the 
engagements are great. They are increasing. We are getting a 
lot of access and meeting with the officials. And I do look 
forward to all these to bear the result of seeing my father and 
Siamak.
    Mr. Schneider. Thank you. And I will close with this. There 
is but one measure of success here and it is Siamak and Bakar, 
it is Robert Levinson, it is Nizar Zakka coming home.
    I have not sat in the chairs you sit in today as a witness, 
it is difficult to testify before Congress I have no doubt. 
Again I just want to emphasize to all three of you, you have 
spoken on behalf of your families, your brother and fathers, in 
a way that makes all of us proud. Please know that we will do 
all we can all the time to make sure that that measure of 
success, bringing them home, is achieved sooner rather than 
later. Thank you very much and I yield back.
    Ms. Ros-Lehtinen. Well said. Thank you so much, Mr. 
Schneider.
    Ambassador Wagner of Missouri?
    Mrs. Wagner. Thank you, Madam Chair, for shining a 
spotlight on Iran's hostages. My heart breaks for those who 
have been arbitrarily detained in Iran and I am hopeful that 
this hearing will help the U.S. Government better respond to 
these tragedies. The abuse you and your family members have 
suffered at the hands of the Iranian regime is appalling and I 
am in awe of your bravery and your perseverance.
    In 2015, the Obama administration issued a presidential 
policy directive on U.S. hostage policy stating that the U.S. 
Government would share more information with families and take 
into consideration each family's particular needs. To each of 
you, do you believe the Obama administration took steps to 
better communicate with families, and what would you recommend 
changing or not changing about the U.S. hostage policy?
    Mr. Levinson, we will start with you.
    Mr. Levinson. On the topic of communication, like I said we 
found out that the others were released as part of the JCPOA by 
watching the news. My mother got a phone call that morning. My 
phone--I was sleeping. I believe it was a Saturday--Sunday, 
Sunday. I was sleeping in because I was still in college. And 
when I woke up I saw 50 text messages and missed calls and I 
thought to myself, oh, my gosh. This could be it. And it was 
not. It was the complete opposite.
    The FBI has continued to be a great friend and partner and 
investigator in trying to get my father home. They have always 
been in constant contact with us. For recommendations I would 
say just get all these Americans home and there won't need to 
be a communication issue the next time that happens.
    Mrs. Wagner. Thank you, Mr. Levinson.
    Mr. Namazi?
    Mr. Namazi. We had a horrible experience, actually. I mean 
during the Obama administration we found out on television like 
the Levinson family that initially my brother Siamak was 
released and part of the swap. There were obviously, I can't 
describe the feeling of joy and the feeling of happiness that 
my brother has been released. That feeling was crushed within 
an hour that in fact Siamak was not part of the swap and for 
reasons which were not really clear to me until today, he was 
left behind.
    And all this is unraveling on television, no one was 
communicating with us at that time. And when I was trying to 
find out information afterwards within the first 24 hours was 
very difficult to get clarity, and then finally we were told 
that there was a promise made by Foreign Minister Zarif to 
Secretary Kerry that Siamak would be released within weeks. The 
communication obviously got better because it couldn't get any 
worse, I would imagine, after everything that unraveled as it 
did that day.
    I think the Office of the Special Envoy is an important 
office. I mean obviously taking that horrible night which was a 
huge, huge nightmare for my family not to have any 
communication, even getting a warning in advance that be 
prepared that this will happen and then that Siamak for 
whatever reason is not part of it, but thereafter that office 
had been helpful to at least keeping us informed on a regular 
basis. That office, the particular position has not been filled 
under the Trump administration, but we have had regular 
communications which started slowly but it has picked up pace 
on that aspect of it.
    So, but obviously again I doubt everything can be shared 
with us, but you know, you don't want empty hope but you want 
to feel that we are heading toward a situation where your 
family and your loved ones will come home.
    Mrs. Wagner. Thank you, Mr. Namazi.
    Mr. Zakka?
    Mr. Zakka. I am not really sure how everything works here 
and how people should have received news, but how I receive my 
news is I go online like anyone else and read the news. But 
recently my dad has been able to talk to me and throughout 
those communications I am able to receive the news that I need.
    Mrs. Wagner. I have a couple more questions, Madam Chair, 
but I will--I have run out of my time. I will just say that 
like I said my heart breaks for you. I will proudly join my 
colleagues on the House floor tomorrow when we vote for this 
sanctions package. I will speak out on the floor tomorrow 
morning during the 10:00 a.m. hour on behalf of your loved 
ones. I thank you.
    Ms. Ros-Lehtinen. Thank you so much, Ambassador Wagner. 
That voice is needed and we appreciate the bipartisan support 
that our bill has received. Thank you to the witnesses today. 
Sometimes as you have pointed out, it is hard for you to know 
whether to become public, whether to speak out on behalf of 
your loved ones who are imprisoned in this country, the largest 
state-sponsored terrorism, still, in the world, but I think 
that you have made the right choice. I think that you have been 
leading advocates and no one knows about their suffering better 
than the people whom they love. So thank you for being such 
strong champions and strong advocates for your loved ones.
    And with that, the hearing is adjourned. Thank you.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
